No.l9-_ __

IN THE
SUPREME COURT OF THE UNITED STATES

JAONTE HAIRSTON, PETITIONER

v.
THE STATE OF OHIO, ET AL., RESPONDENTS

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5(b), I certify that the petition for a writ of
certiorari was served on September 3, 2019, upon the following parties through
counsel of record:
Sheryl Prichard
Assistant Franklin County Prosecuting Attorney
373 South High Street/13th Floor
Columbus, OH 43215
Phone: (614) 525-3555
Counsel for the State of Ohio
Russell E. Carnahan
Robert M. Cody
Hunter, Carnahan, Shaub, Byard & Harshman
3360 Tremont Road, Suite 230
Columbus, OH 43221
Phone: (614) 442-5626
Counsel for Fraternal Order of Police, Capital City Lodge No. 9
Nikki Trautman Baszynski
Assistant State of Ohio Public Defender
250 East Broad Street, Suite 1400
Columbus, OH 43215
Phone: (614) 466-5394
Counsel for the Ohio Public Defender
Jacqueline C. Greene
55 Public Square, Suite 1055
Cleveland, OH 44113
Phone: (216) 241-1430
Counsel for the Ohio Chapter of the National Lawyers Guild
1

David A. Singleton
Executive Director
215 East 9th Street, Suite 601
Cincinnati, OH 45202
Phone: (513) 421-1108
Counsel for the Ohio Justice and Policy Center
Joshua A. Thompson
Assistant Hamilton County Public Defender
230 East 9th Street/2nd Floor
Cincinnati, OH 45202
Phone: (513) 946-3863
Counsel for the Hamilton County Public Defender
Christopher W. Thompson
Assistant Montgomery County Public Defender
117 South Main Street/4th Floor
Dayton, OH 45422
Phone: (937) 224-8633
Counsel for the Montgomery County Public Defender
Erin E. Davies
Executive Director
P.O. Box 1016
Worthington, OH 43085
Phone: (614) 400-5848
Counsel for the Juvenile Justice Coalition
Kelly McConaughey
Executive Director
P.O. Box 477
Bath, OH 44210
Phone: (614) 400-5848
Counsel for the Juvenile Justice Coalition
Sarah J. Gelsomino
55 Public Square, Suite 1055
Cleveland, OH 44113
Phone: (216) 241-1430
Counsel for Friedman & Gilbert, L.L.C.

2

Service was accomplished by United States mail in compliance with Supreme Court
Rule 29.3.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on

J/f S ,

20

Jtf

3

